No. 20-843
IN THE

Supreme Court of the United States
__________

·NEW YORK STATE RIFLE & PISTOL ASSOCIATION, ET AL.,
Petitioners,
v.
KEVIN P. BRUEN, ET AL.,
Respondents.

__________
On Writ of Certiorari to the United States Court
of Appeals for the Second Circuit
__________
BRIEF OF AMICUS CURIAE ALABAMA
CENTER FOR LAW AND LIBERTY IN SUPPORT
OF PETITIONERS
__________
MATTHEW J. CLARK*
*Counsel of Record
ALABAMA CENTER FOR LAW
AND LIBERTY
2213 Morris Ave., Fl. 1
Birmingham, AL 35203
matt@alabamalawandliberty.org
256-510-1828
Counsel for Amicus Curiae

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ...................................... iii
INTEREST OF AMICUS CURIAE ............................. 1
SUMMARY OF THE ARGUMENT ........................... 2
ARGUMENT ............................................................... 4
I.

The Constitution Forbids a State from
Cutting Off a Person’s Right to Carry
Arms for Self-Defense, and Therefore
Laws Like New York’s Concealed Carry
Law Can Be Unconstitutional............................. 4
A.

The historical record before 1791
provides no material evidence
indicating that the right to bear
arms did not include the right to
carry concealed arms .................................... 5

B.

Under the text, structure, and
nature of the Second Amendment,
the government may not prohibit
carrying concealed weapons if it
doing so would cut off his right to
bear arms altogether. ................................... 7

C.

Application: New York Violated the
Second Amendment by Cutting off
Petitioners’ Right to Carry Arms for
Self-Defense ................................................ 10

ii
II.

Time, Place, and Manner Precedents
from First Amendment Cases Would
Require Reversal if Applied Here ..................... 12

CONCLUSION ......................................................... 16

iii
TABLE OF AUTHORITIES
Cases

Page

Clark v. Cmty. for Creative Non-Violence, 468
U.S. 288 (1984) ........................................................ 13
District of Columbia v. Heller, 554 U.S. 570
(2008) ............................................................... passim
Fulton v. City of Philadelphia, No. 19-123
(U.S. June 17, 2021).................................................. 7
Reed v. Town of Gilbert, 576 U.S. 155 (2015) ........... 14
United States v. Cruikshank, 92 U.S. 542
(1876) ......................................................................... 8
Ward v. Rock Against Racism, 491 U.S. 781
(1989) .................................................... 3-4, 12-13, 15
Constitutions, Statutes, and Regulations
N.Y. Penal Code § 265.03(3) ................................ 10, 15
N.Y. Penal Law § 400.00(2) ................................. 10, 14
U.S. Const., amend. I ...................................3-4, 12, 16
U.S. Const., amend. II ....................................... passim

iv
Other Authority
Brett M. Kavanaugh, Two Challenges for the
Judge as an Umpire: Statutory Ambiguity
and Constitutional Exceptions, 92 Notre
Dame L. Rev. 1907 (2017) .................................... 12
Daniel Costa-Roberts, Texas Approves Open
Carry Law for Handguns, PBS (May 30,
2015),
https://www.pbs.org/newshour/politics/tex
as-verge-passing-open-carry-law ......................... 11
The Declaration of Independence (U.S. 1776)............. 9
The Federalist No. 46 (James Madison) ..................... 1
James Kent, Commentaries on American Law
(O. Holmes ed., 12th ed. 1873) ............................... 5
Joseph Story, Commentaries on the
Constitution of the United States (1833) .............. 5
Matthew J. Clark, Second Amendment
Jurisprudence According to the Laws of
Nature and of Nature’s God and the
Original Second Amendment, 8 Liberty U.
L. Rev. 715 (2014)................................................... 9
William Blackstone, Commentaries ...................... 6-10

1

INTEREST OF AMICUS CURIAE 1
Amicus Curiae ACLL is a conservative publicinterest firm based in Birmingham, AL, dedicated to
the defense of limited government, free markets, and
strong families. ACLL’s parent nonprofit organization,
the Alabama Policy Institute (“API”), was founded in
1989 by Congressman Gary Palmer and Chief Justice
Tom Parker of the Alabama Supreme Court. API has
fought for conservative causes in the public policy
arena for over 30 years.
ACLL has an interest in this case because it
believes that the right to keep and bear arms is
essential to the American system of liberty. The rights
to life and self-defense are antecedent to the formation
of civil society and civil government. While we are
grateful for and support our police, they cannot always
respond with the speed that a person might need to
save himself from someone trying to kill him, which is
why the right to keep and bear arms is necessary.
Finally, as James Madison wrote in The Federalist No.
46, the right to keep and bear arms is a necessary
check on the power of government, lest it come to
All parties have consented to the filing of this brief.
Pursuant to Rule 37.6, no party or party’s counsel authored this
brief in whole or in part, or contributed money that was intended
to fund its preparation or submission; and no person other than
the amicus curiae, its members, or its counsel, contributed money
that was intended to fund the preparation or submission of this
brief.
1

2
oppress the people. Consequently, ACLL has a strong
interest in seeing this case resolved in Petitioners’
favor.
Furthermore, in 2013, Alabama changed its
concealed carry law from “may issue” to a “shall issue.”
While ACLL is grateful for this change, it also believes
that the right to keep and bear arms is guaranteed by
the Second Amendment instead of being subject to the
grace of the legislature. Consequently, ACLL moves to
file the attached amicus brief not only to assist
Petitioners in securing their Second Amendment
rights but also in helping the people of Alabama have
their right to bear arms permanently secured.
Finally, in 2014, ACLL’s counsel of record wrote a
law review article that attempted to explore the
contours of the Second Amendment in light of the
background against which the Second Amendment
was framed. His research uncovered some points that
he believes would be useful to the Court in deciding
the present matter, and he will incorporate them here.
SUMMARY OF THE ARGUMENT
In District of Columbia v. Heller, 554 U.S. 570
(2008), this Court issued a masterful opinion that
explored the scope of the Second Amendment.
However, it contained dicta implying that the Court’s
decision should not be construed to override a state’s
prerogative to regulate the concealed carry of
firearms. In this case, the Court has the opportunity
to reexamine that point, and it should take it.

3
The historical record does not provide any material
evidence that the right to bear arms did not protect the
right to carry concealed weapons. While the common
law prohibited going armed with dangerous or
unusual weapons, that has no bearing on common
weapons that are used for self-defense, such as
handguns. The reason for the common law’s
prohibition of bearing dangerous or unusual weapons
was that the public should not have to be terrified.
Consequently, if this rule has any bearing on the
concealed-carry debate, it shows that the common law
favored concealed carry over open carry.
To the extent that the historical record before 1791
is silent on this particular question, it can be answered
by analyzing the text, structure, and nature of the
Second Amendment. Heller correctly noted that the
Second Amendment did not create a right but rather
protected a pre-existing right. The text itself says that
the right includes a right to bear arms; therefore
concealed carry laws can be unconstitutional as
applied if they cut off the right of a person to bear arms
altogether, as New York does.
Moreover, Blackstone and the Founders believed
that the rights to life and self-defense were
inalienable, God-given rights, and therefore it was
necessary for the people to have the means to secure
them. This is all the more reason why the right to bear
arms may not be lightly disregarded.
Finally, if the Court must resort to a judicial test to
evaluate the issue in this case, then it should adopt a
test similar to the time, place, and manner test from
Ward v. Rock Against Racism, 491 U.S. 781 (1989) in
the First Amendment context. Ward did an excellent

4
job of recognizing the First Amendment’s limits
regarding time, place, and manner without running
afoul of the First Amendment itself.
In a similar way, when evaluating whether
denying a concealed carry license is a valid time, place,
or manner restriction of the right to bear arms, the
Court should consider the same elements as it did in
Ward. Applying those elements here, the Court should
find that denying Petitioners’ request for concealed
carry permits (1) was more of a restriction on the right
of self-defense than a time, place, or manner
restriction, (2) was not justified without regard to the
right of self-defense, (3) was not narrowly tailored to
achieve important government interests, and (4) most
importantly, failed to leave ample alternative forms of
self-defense (such as open carry) available to
Petitioners.
ARGUMENT
I.

The Constitution Forbids a State from
Cutting Off a Person’s Right to Carry Arms
for Self-Defense, and Therefore Laws Like
New York’s Concealed Carry Law Can Be
Unconstitutional

In Heller, the Court noted that “the right secured
by the Second Amendment is not unlimited.” District
of Columbia v. Heller, 554 U.S. 570, 626 (2008). The
Court then noted that “the majority of the 19thcentury courts to consider the question held that
prohibitions on carrying concealed weapons were
lawful under the Second Amendment or state
analogues.” Id. Consequently, the Court concluded

5
that its holding in Heller should not be taken to cast
doubt on “longstanding prohibitions” of certain kinds
of firearm restrictions. Id. at 626-27. While carrying
concealed firearms was not explicitly named in that
list of longstanding prohibitions, the discussion of
nineteenth century court holdings strongly implies
that prohibiting the concealed carry of firearms is
constitutional. However, the Court should reconsider
that notion in this case.
A. The historical record before 1791 provides
no material evidence indicating that the
right to bear arms did not include the
right to carry concealed arms.
As Chancellor James Kent noted, “it has been a
subject of grave discussion … whether a statute
prohibits persons, when not on a journey, or as
travelers, from wearing or carrying concealed
weapons, be constitutional.” Heller, 554 U.S. at 618
(quoting 2 James Kent, Commentaries on American
Law *340 n.2 (O. Holmes ed., 12th ed. 1873)). In his
discussion of that issue, Chancellor Kent cited six
court decisions that were split evenly on the question,
but none of them were decided before 1791. See Kent,
supra, at *340 n.2.
Likewise, Justice Story makes no mention of such
limitations in his commentary on the Second
Amendment. 3 Joseph Story, Commentaries on the
Constitution of the United States §§ 1890-91 (1833). If
legal giants like James Kent and Joseph Story, who
typically exhausted the available sources in their

6
treatises, did not find any cases before 1791 holding
that carrying concealed weapons was not within the
scope of the right to bear arms, it is probably because
they did not exist.
Thus, the lack of evidence leading up to the Second
Amendment’s ratification and the fact that the
question was being hotly debated shortly thereafter
shows that early Americans were not settled on the
question. Consequently, it should not be presumed
that the Second Amendment does not protect the right
to carry concealed handguns.
The common law likewise does not lend support to
the proposition that the states may ban concealed
carry without running afoul of the Second
Amendment. Blackstone writes:
The offence of riding or going armed with
dangerous or unusual weapons is a crime
against the public peace, by terrifying the
good people of the land, and is particularly
prohibited by the statute of Northampton, 2
Edw. III. c. 3, upon pain of forfeiture of the
arms and imprisonment during the king’s
pleasure: in like manner as, by the laws of
Solon, every Athenian was finable who
walked about the city in armour.
4 William Blackstone, Commentaries *149.
Several observations must be made about
Blackstone’s rule. First, the common law did not
prohibit carrying arms. Instead, it prohibited riding or

7
going armed with dangerous or unusual weapons.
Thus, the common law did not prohibit the kinds of
weapons that were “‘in common use at the time,’ for
lawful purposes like self-defense,” regardless of
whether the arms were used “in defense of the person
[or] home ….” Heller, 554 U.S. at 624-25 (citations
omitted). Blackstone says nothing about forbidding
people from carrying these arms concealed. On the
contrary, if this passage could be construed as
applying to ordinary weapons like handguns, then
there would be a stronger case for concealed carry
than there would be for open carry. Thus, not only
does the historical record fail to produce evidence
against concealed carry, but if anything it slightly
supports it.
B.

Under the text, structure, and nature of
the Second Amendment, the government
may not prohibit carrying concealed
weapons if it doing so would cut off his
right to bear arms altogether.

Overall, however, it would be fairer to say that “the
historical record [is] more silent” than dispositive one
way or another. Fulton v. City of Philadelphia, No. 19123, slip op. at 20 (U.S. June 17, 2021) (Barrett, J.,
concurring). Consequently, the “textual and
structural arguments” will likely be “more
compelling,” in addition to understanding the nature
of the right itself. Id.
As Heller noted, the operative clause of the Second
Amendment is, “the right of the people to keep and

8
bear arms shall not be infringed.” See Heller, 554 U.S.
at 579-92. These words “guarantee the individual
right to possess and carry weapons in case of
confrontation.” Id. at 592 (emphasis added). Thus, if
banning the concealed carry of weapons would
necessarily cause an individual to lose that right, then
that would violate the Second Amendment.
Understanding the nature of the Second
Amendment further reinforces this conclusion. The
Court has stated correctly:
“[T]he Second Amendment, like the First and
Fourth Amendments, codified a pre-existing
right. The very text of the Second Amendment
implicitly recognizes the pre-existence of the
right and declares only that it ‘shall not be
infringed.’ As we said in United States v.
Cruikshank, 92 U.S. 542, 553, 23 L. Ed. 588
(1876), "[t]his is not a right granted by the
Constitution. Neither is it in any manner
dependent upon that instrument for its
existence. The second amendment declares that
it shall not be infringed . . . .”
Heller, 554 U.S. at 592 (second alteration in original).
To the founding generation, this was not a preexisting right that was granted by the will of
government, but instead a pre-existing natural right
that was necessary to preserve the unalienable rights
of life and self-defense. As Blackstone said, “Life is the
immediate gift of God, a right inherent by nature in
every
individual.”
1
William
Blackstone,

9
Commentaries *129. Consequently, “the life and limbs
of man are of such high value, in the estimation of the
law of England, that it pardons even homicide if
committed se defendendo, or in order to preserve
them.” Id. at *130.
The American founding generation likewise
professed, “We hold these truths to be self-evident,
that all men are created equal, that they are endowed
by their Creator with certain unalienable Rights, that
among these are Life, Liberty and the pursuit of
Happiness.” The Declaration of Independence para. 2
(U.S. 1776). Given that the Founders shared
Blackstone’s view that life is an unalienable right
given by God, there is no reason to believe that they
would have disagreed with Blackstone that killing in
self-defense would be permissible as well.
But just like other rights, the God-given,
unalienable right to self-defense would exist in name
only if the means to secure that right was not
available. From the founding generation until now,
the best way for one to protect his unalienable right to
life in case of confrontation is carrying a handgun.
Since the rights to life and self-defense are God-given
unalienable rights, the means of securing those rights
must be unalienable as well. 2 Consequently, while the
government may be able to place reasonable
regulations on the methods of bearing arms, it cannot
For further discussion of bearing arms as a natural right,
see Matthew J. Clark, Second Amendment Jurisprudence
According to the Laws of Nature and of Nature’s God and the
Original Second Amendment, 8 Liberty U. L. Rev. 715 (2014).
2

10
do so in a way that would deprive a person of the right
that Blackstone and the Founders called
“unalienable.”
C.

Application: New York Violated the
Second Amendment by Cutting off
Petitioners’ Right to Carry Arms for SelfDefense

Consequently, the Second Amendment prohibits
the government from imposing regulations that
deprive a person of the right to carry arms for the
purpose of self-defense. The text, structure, and
nature of the Second Amendment might not
necessarily provide that concealed carry is
constitutionally protected in every case. However, if
the government forbids concealed carry in a way that
deprives a person of his ability to carry a handgun for
self-defense altogether, then it violates the Second
Amendment.
Such is the case here. Under New York law, only
certain persons are granted the right to carry
concealed weapons, while the rest of the People
(including Petitioners) are at the mercy of a
government official who must determine if they have
“proper cause.” N.Y. Penal Law § 400.00(2). Not only
is concealed carry illegal in most instances, but open
carry is illegal in New York as well. See N.Y. Penal
Code § 265.03(3). Consequently, by denying their
application for concealed carry permits, the State has
cut off Petitioners’ ability to carry firearms for self-

11
defense altogether. Thus, the State violated the
Second Amendment by denying their applications.
On one last note, even if the government
categorically allows one form of carrying a firearm but
restricts the other, it can still violate the Second
Amendment. For instance, if a state permits open
carry but forbids concealed carry, then it would make
criminals out of nearly all its citizens when winter
comes and every reasonable person would be forced to
wear coats that cover their arms. At that point,
complying with the restrictions would become nearly
impossible. Likewise, if a state forbade open carry but
liberally allowed concealed carry (as Texas did until
2015), 3 then it could still violate the Second
Amendment if it a particular citizen did not have the
means to conceal the firearm.
In conclusion, while the historical, textual,
structural, and natural-right arguments may not be
dispositive of whether the government may prohibit
concealed carrying altogether, the Second Amendment
still requires the states to allow its people to carry
firearms for self-defense. If the government cuts off a
citizen’s means of doing that, as New York has done
here to Petitioners, then those concealed carry laws
are unconstitutional as applied.

See Daniel Costa-Roberts, Texas Approves Open Carry Law
for
Handguns,
PBS
(May
30,
2015),
https://www.pbs.org/newshour/politics/texas-verge-passingopen-carry-law.
3

12
II.

Time, Place, and Manner Precedents from
First Amendment Cases Would Require
Reversal if Applied Here.

One of Heller’s strengths was its avoidance of
judicial balancing tests, deciding the case instead on
the Constitution’s text, history, and structure. With all
due respect to the Court, ACLL agrees with the
concerns Justice Kavanaugh has articulated about
judicial balancing test, comparing them to an umpire
trying to call balls and strikes without a defined strike
zone. See Brett M. Kavanaugh, Two Challenges for the
Judge as an Umpire: Statutory Ambiguity and
Constitutional Exceptions, 92 Notre Dame L. Rev.
1907 (2017). Thus, if at all possible, this Court should
resolve this case by looking to the text, structure,
history, and nature of the Second Amendment rather
than by judicial balancing tests.
However, if this Court needs to resort to some kind
of test, it may be helpful for the Court to look at its
First Amendment precedents concerning time, place,
and manner restrictions. Those precedents have
discovered how to protect the State’s interests without
running afoul of the constitutional right itself.
Consequently, those decisions may be of service in
deciding the present case.
In Ward v. Rock Against Racism, 491 U.S. 781
(U.S. 1989), the Court held:
“[T]he government may impose reasonable
restrictions on the time, place, or manner of
protected speech, provided the restrictions
‘are justified without reference to the content

13
of the regulated speech, that they are
narrowly tailored to serve a significant
governmental interest, and that they leave
open ample alternative channels for
communication of the information.’”
491 U.S. at 791 (quoting Clark v. Cmty. for Creative
Non-Violence, 468 U.S. 288, 293 (1984)).
Ward correctly recognized that the right to free
speech does not necessarily mean that a person can
exercise that right at unusually and unnecessarily
high volumes; the government may protect the people
from those harms. On the other hand, Ward’s
restatement of the time, place, and manner
precedents protected the speakers by forbidding the
government from being so heavy-handed with its
restrictions that it crushed the people’s right to speak.
Any restriction recognized on the right to bear
arms should at least provide the same level of
protection for the right of self-defense as it did in
Ward. Thus, applying Ward to the Second
Amendment, the Court should ask the following
questions:
(1) Is the restriction on the right to bear arms a
time, place, or manner restriction?
(2) Is it justified without regard to the right of selfdefense? In other words, if the evil the government
seeks to prevent is the carrying of arms for selfdefense, then that’s not good enough.
(3) Is the restriction narrowly tailored to serve a
significant government interest? Because the right of
self defense is just as important (if not more so) than

14
the right to free speech, it deserves at least as much
protection as free speech gets in similar cases.
Rational basis review is not good enough.
(4) Does the restriction leave open ample
alternative means of self-defense? If under the totality
of the circumstances the citizen is left defenseless,
then the government has crossed the line from
imposing reasonable time, place, and manner
restrictions to abridging the right of self-defense itself.
Applying these principles to the case at hand, N.Y.
Penal Law § 400.00(2) regulates who may carry
handguns, as well as when and where. Thus, while it
partially addresses when and where guns may be
carried, it does not allow an average citizen to carry a
weapon without good cause. See § 400.00(2)(g)
(allowing licenses to be issued for everyone else only
for “proper cause.”). Thus, the law in question is more
than just a time, place, and manner restriction,
because it allows only a select few to carry firearms
for self-defense. 4
Second, the law does not appear to be justified
without regard to the right of self-defense. The whole
point of the law, in New York’s eyes, is to ensure that
only properly qualified individuals may bear arms.
Nevertheless, Heller held correctly that the Second
Amendment guarantees “the individual right to
Cf. Reed v. Town of Gilbert, 576 U.S. 155 (2015) (rejecting
the Ninth Circuit’s argument that prohibiting church signs in a
certain context was a content-neutral restriction and holding that
it was a content-based restriction instead). In the same way, New
York may characterize its concealed carry law as a time, place, or
manner restriction, but in reality is it a restriction on the right to
self-defense itself.
4

15
possess and carry weapons in case of confrontation.”
Heller, 554 U.S. at 592. To the extent that New York
believes the risk of harm that unqualified individuals
may pose is greater than the risk the individual bears
of not being able to defend himself, the Supreme Law
of the Land has resolved that question in favor of the
individual. There may be, of course, instances in
which an individual can forfeit his right to carry or be
disqualified for good cause. But presuming that a
citizen may bear arms until he proves that he may not
bear them anymore is far different than presuming
that citizens may not bear arms until they can prove
that he may bear arms.
Third, the government undoubtedly has a
substantial interest in protecting the public safety.
But since the Constitution presumes that the ability
of average citizens to carry weapons for their own
protection is permissible, the validity of relying on this
alone would be questionable. Even if it was valid,
however, stripping most ordinary citizens of their
ability to protect themselves is not a narrowly tailored
means to achieve that interest. See Ward, 491 U.S. at
799 (holding that the narrowly tailored standard “does
not mean that a time, place, or manner regulation
may burden substantially more speech than is
necessary to further the government’s legitimate
interest”).
Finally, the government’s biggest problem in this
case is that there are no ample alternative means of
allowing citizens to defend themselves. New York law
criminalizes both open and concealed carry without a
license. See N.Y. Penal Code § 265.03(3). While the
government might arguably be able to prohibit open

16
or concealed carry if it had a substantial reason for
doing so, banning both cuts off the citizen’s right to
bear arms for self-defense. 5
Consequently, if this Court applied the time, place,
and manner test that it has articulated in its First
Amendment jurisprudence, then the New York laws
at issue would be unconstitutional, as would be the
denial of the Petitioners’ applications for concealed
carry permits.
CONCLUSION
Even if the Constitution allows the states to
regulate carrying concealed firearms, it may not
prohibit the people from carrying concealed weapons if
doing so would deprive them of the right to bear arms
altogether. New York has done so here, and therefore
it has run afoul of the Second Amendment.
Consequently, the judgment of the Second Circuit is
due to be reversed.
Respectfully submitted,
MATTHEW J. CLARK*
*Counsel of Record
ALABAMA CENTER FOR LAW
There are, of course, very special circumstances in which the
government may be able to prohibit the bearing of arms
altogether, such as entering a government-controlled building
(where public officials need to control building security for their
own protection) or boarding a flight (where one stray bullet from
a gun may breach the plane and kill everyone on board). But even
in those cases, a person’s safety is usually guaranteed by other
means, such as security personnel who are on the premises
instead of far away at a police station.
5

17
AND LIBERTY

2213 Morris Ave., Fl. 1
Birmingham, AL 35203
matt@alabamalawandliberty.org
256-510-1828
Counsel for Amicus Curiae

